<html>
<title> - NOMINATIONS OF L. REGINALD BROTHERS, JR., AND HON. FRANCIS X. TAYLOR</title>
<body><pre>[Senate Hearing 113-441]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 113-441

  NOMINATIONS OF L. REGINALD BROTHERS, JR., AND HON. FRANCIS X. TAYLOR

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             SECOND SESSION

                               __________

 NOMINATIONS OF L. REGINALD BROTHERS, JR., NOMINEE FOR UNDER SECRETARY 
 FOR SCIENCE AND TECHNOLOGY, U.S. DEPARTMENT OF HOMELAND SECURITY, AND 
 HON. FRANCIS X. TAYLOR, NOMINEE FOR UNDER SECRETARY FOR INTELLIGENCE 
           AND ANALYSIS, U.S. DEPARTMENT OF HOMELAND SECURITY

                               __________

                             MARCH 5, 2014

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                         U.S. GOVERNMENT PRINTING OFFICE 

88-278 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

               John P. Kilvington, Acting Staff Director
            Harlan C. Geer, Senior Professional Staff Member
               Carly A. Covieo, Professional Staff Member
            Deirdre G. Armstrong, Professional Staff Member
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
               Andrew C. Dockham, Minority Chief Counsel
         Daniel P. Lips, Minority Director of Homeland Security
          William H.W. McKenna, Minority Investigative Counsel
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk




















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Coburn...............................................     3
Prepared statements:
    Senator Carper...............................................    19
    Senator Coburn...............................................    21

                               WITNESSES
                        Wednesday, March 5, 2014

L. Reginald Brothers, Jr., Nominee for Under Secretary for 
  Science and Technology, U.S. Department of Homeland Security
    Testimony....................................................     5
    Prepared statement...........................................    24
    Biographical and financial information.......................    29
    Letter from the Office of Government Ethics..................    49
    Responses to pre-hearing questions...........................    51
    Responses to post-hearing questions..........................    75
    Letters of Support...........................................    80
Hon. Francis X. Taylor, Nominee for Under Secretary for 
  Intelligence and Analysis, U.S. Department of Homeland Security
    Testimony....................................................     7
    Prepared statement...........................................    83
    Biographical and financial information.......................    87
    Responses to pre-hearing questions...........................   104
    Responses to post-hearing questions..........................   127
    Letters of Support...........................................   131

 
  NOMINATIONS OF L. REGINALD BROTHERS, JR., AND HON. FRANCIS X. TAYLOR

                              ----------                              


                        WEDNESDAY, MARCH 5, 2014

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Committee, presiding.
    Present: Senators Carper and Coburn.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. Good morning. Our hearing will come to 
order.
    Dr. Coburn will join us momentarily, but today we meet to 
consider the two nominations for important positions at the 
Department of Homeland Security (DHS)--Dr. Reggie Brothers to 
serve as Under Secretary for the Science and Technology 
Directorate (S&T) and retired Brigadier General Frank Taylor to 
serve as Under Secretary of Intelligence and Analysis (I&A).
    I am pleased to see that President Obama continues to put 
forth well-qualified nominees to fill the leadership vacancies 
in critical components such as each of these.
    The work done by the men and women at the Science and 
Technology Directorate cuts across all of the components and 
missions of this Department. They are responsible for 
harnessing cutting-edge technology, and research and 
development (R&D) projects that help Department personnel and 
their partners be more effective in carrying out their missions 
and responsibilities.
    Dr. Brothers comes to us from the Department of Defense 
(DOD), where he serves as Deputy Assistant Secretary of Defense 
for Research. In that position, he is responsible for policy 
and oversight of the Department of Defense science and 
technology programs, ranging from basic research through the 
development of advanced technologies. He is also responsible 
for long-term strategy for the Department's science and 
technology programs.
    In addition to his work at the Department of Defense, Dr. 
Brothers also has significant experience in the private sector 
working in laboratories. He clearly has a breadth of hands-on 
technical expertise that he will bring to the Department of 
Homeland Security.
    In this budget environment, we need to make important 
decisions on how to spend limited funds and are forced to do 
more with less. However, we still have to stay ahead of the 
evolving threats from both man-made and natural sources. I look 
forward to hearing from Dr. Brothers today as he seeks to do 
that. His background in managing science and technology 
projects at DOD make him a great fit for this important role. 
And I hope that we can move your nomination quickly.
    General Taylor's nomination has been referred to the Senate 
Select Committee on Intelligence. However, this Committee is 
afforded the option of holding hearings on that nomination, and 
we are doing that today.
    The Department of Homeland Security's Office of 
Intelligence and Analysis, serves as the hub for homeland 
security intelligence. I&A was born out of a clear information-
sharing need exposed after September 11, 2001. The office 
connects the U.S. Intelligence Community with the private 
sector, with our State and local partners, and DHS's various 
components.
    Over the years, I&A has endured its fair share of criticism 
for its analytical output, for its mission within the U.S. 
Intelligence Community (IC) and for its role in helping our 
Nation's fusion centers do a better job sharing information.
    Compounding matters, the office has been without a Senate-
confirmed leader for the past 15 months. That is simply too 
long for such a critical position.
    Make no mistake, however, the interim leader of late, 
Principal Deputy Under Secretary John Cohen, has done an 
exemplary job addressing the challenges that I&A faces, and we 
thank him for his stewardship.
    However, in order to take the next step in its maturation, 
I&A needs the leadership that only a Senate-confirmed Under 
Secretary can provide. The Senate can do something about that 
right now, and that is by quickly confirming General Taylor.
    Like Dr. Brothers, General Taylor comes well equipped to 
handle the task before him. His 35-year career in the Federal 
Government includes key positions in counterintelligence, law 
enforcement and counterterrorism. Moreover, for the past 9 
years, General Taylor has worked to enhance the security of one 
of the largest, and I think best, companies in the world; that 
is General Electric (GE).
    I am confident that General Taylor is the right person for 
the job, and I will push for a speedy confirmation. General 
Taylor, should you be confirmed, we look forward to working 
with you to improve this office and the vital information 
sharing over the coming months and years.
    And, with that having been said, again, we welcome you, and 
I am going to turn it over to Dr. Coburn, who I believe has 
already been part of a hearing with you, General Taylor, in his 
role on the Intelligence Committee. Dr. Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Well, thank you, Mr. Chairman, for having 
this hearing.
    I want to thank both of our nominees for their willingness 
to serve. They both come as very qualified individuals.
    I have a prepared statement for the record that I would 
like to be placed.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Coburn appears in the 
Appendix on page 21.
---------------------------------------------------------------------------
    Chairman Carper. Without objection.
    Senator Coburn. And I would note that both areas these 
gentlemen are going to fulfill leadership roles in fit very 
well with what Secretary Jeh Johnson has planned for getting 
the Department of Homeland Security to where it needs to be.
    And, again, I would thank you for your willingness to 
serve.
    We have lots of problems, both in S&T and I&A, both of 
them. The difficulty in S&T is you are given the responsibility 
but no authority to control the budgets over the areas which 
you are going to have which means leadership skills are going 
to be tremendously important and how you coordinate that and 
nurse that to a position where we are coordinated.
    Senator Levin and I put out a 2-year study on fusion 
centers showing that even though we spent $1.4 billion there is 
not one piece of actionable intelligence that has ever come up 
that could be used nationwide out of that investment. And we 
have had discussions about how to utilize that and what the 
goals for that are, and it is not eliminating fusion centers, 
but it is redirecting what they can best do in terms of all 
hazards.
    So I do not have any questions specifically. I will have a 
few in writing for our nominees. I have had great visits with 
both of them a couple of times.
    And I am thankful to our President for these nominations, 
and I am thankful for the leadership of Jeh Johnson in wanting 
these to happen. And it is my hope we can get them moved, as 
well as Suzanne Spaulding, as well as the IG, as well as the 
rest of the ones that have passed our Committee.
    Chairman Carper. Dr. Coburn, thanks and thanks very much 
for all that you are doing to try to get these folks confirmed 
and before the Senate and up and down for a vote.
    Let me make a couple of brief introductions. This could be 
a fairly short hearing. You never know. That would be a good 
thing for your nominations, actually.
    Dr. Brothers has filed responses to his biographical and 
financial questionnaires. He has answered prehearing questions 
submitted by the Committee and had his financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made part of the hearing record, with 
the exception of financial data which are on file and available 
for public inspection in the Committee offices.
    General Taylor's nomination has been referred to the Select 
Committee on Intelligence, as we have said. However, this 
Committee is afforded the option of holding hearings on the 
nomination, and we are here seeking to do that today.
    General Taylor has provided biographical information and 
the answers to prehearing questions to the Senate Select 
Committee on Intelligence, and the Intelligence Committee has 
shared that information with us in preparation for this hearing 
today.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath.
    And, with that, I am going to ask Dr. Brothers and General 
Taylor, would you both please stand and raise your right hand?
    Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth and nothing but 
the truth; so help you, God?
    Mr. Brothers. I do.
    General Taylor. I do.
    Chairman Carper. You may be seated.
    Let me just briefly introduce our nominees before asking 
them to proceed with their statements.
    Our first nominee, Dr. Reggie Brothers, the President has 
nominated to be Department of Homeland Security's Under 
Secretary of Science and Technology. Dr. Brothers currently 
serves as Deputy Assistant Secretary of Defense for Research at 
the Department of Defense. He has extensive background in the 
private sector at BAE Systems, the Defense Advanced Research 
Projects Agency (DARPA), the Charles Draper Laboratory and the 
Massachusetts Institute of Technology (MIT) Lincoln Laboratory.
    Welcome. Pleased to have met with you and pleased to have 
you be with us today.
    Our second nominee is retired General Frank Taylor, the 
President's nominee for the Department of Homeland Security's 
Under Secretary for Intelligence and Analysis. As a career Air 
Force officer, General Taylor served his country for 31 years 
as a counterintelligence and law enforcement officer.
    In 2001, he went to work for Secretary of State Colin 
Powell as the State Department's counterterrorism coordinator, 
a position with the rank of Ambassador. After a year and a 
half, he was appointed to lead the State Department's Bureau of 
Diplomatic Security as Assistant Secretary of State for 
Diplomatic Security.
    In 2004, General Taylor left the public sector to become 
the Vice President and Chief Security Officer for General 
Electric, where he handled top security issues like espionage 
and insider threats.
    Again, we thank both of you for your willingness to serve 
in these important positions.
    Dr. Brothers, if you will, please proceed with your 
statement. Feel free to introduce any members of your family 
who are with you today.
    I heard that you might be bringing Jasmine's classmates 
from--what is she? Seven years old?
    Mr. Brothers. Seven years old.
    Chairman Carper. Yes, I heard she might be bringing some of 
her classmates here today. So feel free to introduce as many of 
them as you want.

 TESTIMONY OF L. REGINALD BROTHERS, JR.,\1\ NOMINEE FOR UNDER 
   SECRETARY FOR SCIENCE AND TECHNOLOGY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Brothers. Thank you so much, Mr. Chairman, Dr. Coburn 
and distinguished Members of the Committee. It is a great honor 
for me to appear before you today as President Obama's nominee 
for the position of Under Secretary for the Science and 
Technology Directorate of the Department of Homeland Security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Brothers appears in the Appendix 
on page 24.
---------------------------------------------------------------------------
    I am also honored to appear before this Committee, which 
for the past 12 years has provided sound and distinguished 
leadership for the Department that is the foundation of our 
domestic security. If confirmed, I look forward to making my 
contribution to the security of our Nation in these times of 
accelerating technological advancements and diverse threats.
    Senators, I would like to introduce my family now--first, 
my wife Cynthia, who is the kindest and most compassionate of 
all people I have known. Her love is my security. My daughter, 
Jasmine, who is only 7 years old, continues to teach me 
profound lessons and greater love every day. I marvel as I 
watch her grow in intelligence, confidence, kindness, and inner 
and outer strength. As I think you know, she wants to be a 
scientist and a doctor. My dad, Lou Brothers, is not just my 
father but my best friend. At 96 years of age, he continues to 
provide a powerful example of the type of man, I strive to be. 
His life has been based on service to his family, his community 
and his country. He has taught me the values of integrity and 
perseverance from his daily example. My mother, who is here 
with us in spirit today, passed away 4 years ago. She is my 
example of love of family and friends that I continuously 
strive to emulate. I also thank my cousin, Debbie, who flew 
here from Chicago this morning, for her love and never ending 
support. I would also like to acknowledge my extended family, 
my friends who you see behind me, because I believe that 
friendship is essential to the soul.
    I was asked recently why I am interested in taking on this 
challenge. My desire comes from my personal understanding of 
the impact of terrorist attacks. I am from Boston and have many 
friends who live and work in New York City. On September 11, 
2001, one of these friends was seriously injured as she ran 
headlong into a cement street pole as she fled the area called 
Ground Zero.
    In 1996, I ran the Boston Marathon. In 2013, I watched 
scenes of devastation in familiar areas around the Boston 
Public Library. What if someone I loved had been injured or 
killed that day? These sorts of tragedies have ignited my 
passion to serve the mission and the vision of the Department 
of Homeland Security, to ensure a safer and a more secure 
America.
    While my technical expertise and training is in the areas 
of sensor systems, communications and cybersecurity, a 
different type of attribute I can bring to the position of 
Under Secretary is the perspective I have garnered from a 
diverse career spent working across the science and technology 
enterprise, and you mentioned academia, industry, public 
service.
    In my current role as Deputy Assistant Secretary of Defense 
for Research at the Department of Defense, I have purview over 
a broad portfolio, approximately $12 billion in investment.
    And, Dr. Coburn, you mentioned leadership. I think when 
being considered for such an important role it is important to 
discuss not just technical competence but leadership style as 
well. From a leadership perspective, I believe it is essential 
to focus on fostering relationships among all stakeholders, 
asking the right questions and truly listening.
    If confirmed, I will emphasize collaboration, open 
communication, horizontally and vertically across the 
Directorate. I believe it is essential that everyone feels 
heard, valued, and empowered.
    Now I would like to pivot from leadership to another 
priority for the Homeland Security enterprise, and that is 
technology transition to operational components. The process of 
developing critical technical end-user capabilities involves a 
wide variety of professionals, including academics, scientists, 
technologists, tactical operators, senior leaders in 
acquisition, and legal professionals.
    I am fortunate to have worked closely with professionals 
from all of these communities, and I have learned and 
appreciate each of their nuanced languages. I believe this 
multilingual capability is essential for a most efficient and 
effective technology transition.
    Going forward, I would like to continue the good work and 
leadership of my predecessors: Dr. Charles McQueary, Rear 
Admiral Jay Cohen, and Dr. Tara O'Toole. I will continue to 
foster a culture in which decisions are informed by rigorous 
analysis, focused on adding value to the operational 
components, and managing investments in the most efficient and 
effective manner.
    I am deeply humbled, and I am honored to appear before you 
today in consideration of serving as the Under Secretary for 
the Science and Technology Directorate. I look forward to 
working with the leadership and Members of this Committee to 
serve the interests of the United States and its people.
    Thank you.
    Chairman Carper. Dr. Brothers, thanks very much for your 
testimony.
    And I just want to say to your wife, to your daughter, to 
your dad and all those folks that are gathered behind you in 
your family and your extended family, just a warm welcome and 
particularly--here they come.
    Jasmine, this looks like your classmates from your class. 
Is that right?
    Mr. Brothers. This is the second grade class from Pinnacle 
Academy. It is a science and mathematics school in Oakton, 
Virginia.
    Chairman Carper. That is great.
    Well, Jasmine, just to make sure, we do not tolerate 
disruptions. [Laughter.]
    But we are happy that you are here, and we are happy that 
your classmates and teachers are here as well.
    Welcome one and all, especially to your dad. It is just a 
great honor to have you in our presence. Welcome.
    Mr. Brothers. Thank you.
    Chairman Carper. General Taylor, I do not know how you are 
going to top that. [Laughter.]

 TESTIMONY OF THE HONORABLE FRANCIS X. TAYLOR,\1\ NOMINEE FOR 
UNDER SECRETARY FOR INTELLIGENCE AND ANALYSIS, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    General Taylor. I am not going to try, Senator.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Taylor appears in the 
Appendix on page 83.
---------------------------------------------------------------------------
    Chairman Carper, Dr. Coburn, Members of the Committee, I am 
honored and extraordinarily humbled to appear before you today 
as the President's nominee for the Under Secretary for 
Intelligence and Analysis at the Department of Homeland 
Security.
    Before I begin, I would first like to recognize my family. 
Without their support and encourage, I would not be here before 
you today. And, while they are not able to join me here for 
today's hearing, I am sure that they are watching. I am 
grateful for the core values they have instilled in me and for 
the life lessons they have taught me. For me, there is no 
stronger symbol for the importance of accepting challenges like 
this and the importance of making sure that we are getting it 
right.
    During my last period of government service, I was 
privileged to work with Governor Tom Ridge and his team as they 
endeavored to establish the Department of Homeland Security in 
2003. DHS has come a long way, and its mission and 
responsibilities have continued to evolve from those early 
days. This position and the team I would be privileged to lead, 
if confirmed, constitute crucial links between both the Federal 
Government and the Intelligence Community, and our State, 
local, tribal, territorial, and private sector partners, who 
are on the front lines every day, protecting our country and 
the citizens from an ever-evolving threat. As we learned in the 
aftermath of 9/11, securing our Nation requires an effective 
and intentional collaboration at every level. As envisioned by 
Congress, I&A's role is to enable effective information sharing 
among the Federal Government, its State and local, tribal, and 
private sector partners, ensuring all involved have a clearer 
understanding of the nature of the threats that we face 
collectively.
    I remain haunted by the fact that at least one of the 9/11 
hijackers was engaged by local law enforcement before the 
attack and the fact that there was certainly a potential for 
action against that individual before the attack. This is the 
type of coordination that must take place if we are to be 
successful, and if confirmed, I will work to strengthen and 
improve the processes and partnerships necessary to identify 
and mitigate potential threats to our country and our citizens.
    If confirmed, I intend to bring my 43 years of law 
enforcement, security, intelligence, and crisis management 
experience to bear in further refining and advancing the 
efforts of my talented and dedicated predecessors. I have had 
the distinct honor to serve our country as a U.S. Ambassador, 
leading and directing diplomatic counterterrorism and 
diplomatic security operations. I have also had the privilege 
to work as the Chief Security Officer for the General Electric 
Company, a Fortune 10 global U.S. conglomerate. In each of 
these challenging but distinctly different roles, I have 
assumed responsibility for mission execution and success, and I 
believe my record indicates consistently successful results. I 
have also had the experience of working both line and staff 
roles, developing and implementing policy, creating and 
managing budgets at every level, and leading operational 
activity to mitigate risk to our country as well as to an 
American economic giant, and I understand the interdependency 
of the two.
    While the I&A mission is different from any organization I 
have led before, I will have to endeavor to learn the 
organization, its unique customer requirements, and its 
strengths and shortcomings. Following a week of intensive 
briefings and meetings, I am pleased to share that my initial 
assessment is very positive. I believe the organization is 
grounded upon a solid foundation, and I hope to continue to 
build on that foundation, particularly regarding the further 
strengthening of DHS's bond to the National Network of Fusion 
Centers, enhancing I&A's analytical contribution to the 
Intelligence Community, of information derived from the 
Department, State and local sources, as well as working to 
eliminate duplicative efforts among I&A, other DHS components, 
and our IC partners.
    What makes I&A unique in the Intelligence Community is its 
mission to link the U.S. Intelligence Community with first 
responders across our country. The network of State and local 
fusion centers provides I&A with a critical beachhead from 
which it delivers information and analytical resources to our 
Nation's 1,800 police entities. Caryn Wagner, as well as the 
current I&A leadership team, began that process with aggressive 
deployment of I&A personnel to fusion centers in the 
development of a program of analysis that will guide the future 
production of our analytical products. If confirmed, I will 
work relentlessly to execute these plans, ensuring all 
stakeholders understand that the critical importance of 
supporting our State, local, tribal and public sector partners.
    No organization can live on its reputation or hide behind 
its mission statement. Organizations must evolve to improve to 
meet the changing environments in which they operate. Mission 
assessment, the development of clear objectives and the 
implementation of rigorous metrics will help I&A stay focused 
on both the present and the future. While my initial briefings 
on I&A were impressive, they now constitute the baseline from 
which I will use, if confirmed, to set future expectations and 
measure effectiveness and accomplishment.
    To better serve the Department and the Intelligence 
Community, the Under Secretary for Intelligence and Analysis 
must also embrace the role of Chief Intelligence Officer and 
work with DHS components to synergize intelligence activities 
across the Department. I am impressed with the potential of 
what DHS calls the Homeland Security Intelligence Enterprise, 
and I believe it is the right approach to implement 
intelligence integration across the Department. If confirmed, I 
intend to work aggressively with the DHS intelligence 
components to further develop that model, and I look forward to 
working with Congress to identify other ways to further build 
the DHS intelligence enterprise.
    Mr. Chairman, with your permission, I would like to enter 
the rest of the statement into the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of General Taylor appears in the 
Appendix on page 83.
---------------------------------------------------------------------------
    Chairman Carper. Without objection.
    All right, gentlemen, thank you for statements.
    We need to start off our questioning today with me asking 
three questions. These are questions we ask of all nominees. 
And you may remain seated when I ask these questions and as you 
answer them, if you will just please answer after each 
question.
    No. 1, is there anything you are aware of in your 
background that may present a conflict of interest with the 
duties of the office to which you have nominated?
    Dr. Brothers.
    Mr. Brothers. No.
    General Taylor.
    General Taylor. No, sir.
    Chairman Carper. All right. Do you know of anything 
personal or otherwise that would, in any way, prevent you from 
fully and honorably discharging the responsibilities of the 
offices to which you have been nominated?
    Dr. Brothers.
    Mr. Brothers. No, sir.
    Chairman Carper. General Taylor.
    General Taylor. No, sir.
    Chairman Carper. All right. And, finally, do you agree, 
without reservation, to respond to any reasonable summons to 
appear and testify before any duly constituted committee of 
Congress if you are confirmed?
    Mr. Brothers. Yes, sir.
    General Taylor. Yes, sir.
    Chairman Carper. All right. Thanks very much.
    I would like to start with you, a question for you, General 
Taylor. We talked a little bit about this when you visited with 
my staff and me last month in my office.
    Dr. Coburn, as he said, has spent about 2 years drilling 
down on the fusion centers--a concept which, on paper, makes a 
whole lot of sense but, in its actual execution and 
implementation, has been less than satisfying.
    And there is, I think, still considerable potential to be 
realized, but it has not been realized. His work and that of 
his staff and Senator Levin made that, I think, fairly clear.
    I do not know if you have had a chance to read the work 
that they have created and the study that they have done, their 
findings and recommendations. But, whether you have or not, I 
would like for you to just talk about the concept of fusion 
centers, where they make sense, where they do not, what has 
gone wrong in terms of our fully recognizing or realizing their 
potential in this country.
    General Taylor. Thank you, Mr. Chairman.
    And, Dr. Coburn, and I have had several discussions about 
that very issue.
    First, let me say that I think fusion centers are critical 
in terms of bringing the 18,000 police agencies around this 
country into the counterterrorism fight, and it is through the 
fusion centers that we can do that.
    I think the challenge is, what are the metrics of success 
in the fusion center, both in translating IC information to the 
fusion centers and bringing information from the fusion centers 
back to the Intelligence Community?
    And so I have read the report from Dr. Coburn and Senator 
Levin. I understand what the concerns are.
    If confirmed, my intention is to look very carefully and 
closely at what the fusion centers are expected to do, to set 
expectations for how that mission should be performed, and then 
measure as best I can the execution of that mission to ensure 
that they are meeting their potential.
    Chairman Carper. You worked for two of the people, two of 
the leaders, that I most admire in this country--Colin Powell 
and Jeff Immelt, one a military leader, the leader of our State 
Department and just a great American, and the other a 
remarkably successful and effective leader on a highly 
respected, multinational company, GE.
    What were the qualities that they saw in you that led them 
to hire you for these positions of extraordinary 
responsibility, and how does your execution of those duties 
suggest that you are well qualified for this position?
    General Taylor. Sir, it is my belief in both cases I was 
hired based upon my demonstrated track record of forming, in 
the counterintelligence world and the Air Force, those skills 
that could be translated to the State Department and the 
counterterrorism role in the State Department and, ultimately, 
as the security leader for the State Department.
    And, the same with GE, GE was looking for a leader that had 
both international and U.S. experience in leading complex 
security operations. GE did not have a chief security officer 
at the time I was hired. I was hired to build a capability.
    And my track record in terms of building capability and 
mission execution, I believe, was a very important ingredient 
in why both Mr. Immelt and General Powell hired me.
    Chairman Carper. Dr. Brothers, a question for you if I 
could.
    Again, Dr. Coburn has focused on the issue of duplication. 
There is a fair amount of it in government. If you do not 
believe it, just ask him. And he has spent a huge amount of 
time with his staff in finding it and pointing it out.
    I want us to ponder for a moment, R&D duplication. I think 
in a 2012 report the Government Accountability Office (GAO) 
released a report that took a fairly broad look at research and 
development across at DHS. And, while the report did not find 
instances of duplication, it cited the potential for 
duplication and waste due to coordination challenges within the 
Department.
    How would you view the role of the Directorate in 
coordinating research and development investments across DHS? 
That is the first part of my question.
    And the second part would be, how would you ensure that the 
highest priorities are funded, with desired results, delivered 
to prevent potential duplication?
    Mr. Brothers. Thank you.
    Sir, I think the role of the Department is to have very 
strong communication links horizontally and vertically across 
the Homeland Security enterprise.
    So I think it is important that we understand what the 
needs of the operational components are as opposed to 
necessarily what some of the wants might be. It is really what 
the needs are, and that requires a great deal of communication.
    It is also important that we understand the art of the 
possible with respect to technology and science, that we do a 
good job of the technology foraging so that we can have the 
most efficient and effective use of our investment dollars, and 
we also look toward the future to see where some of the science 
and technology can lead us to.
    I am sorry. What was the second part of your question, sir?
    Chairman Carper. The second part of my question is, how 
would you ensure that the highest priorities are funded, with 
desired results delivered, to prevent potential duplication?
    Mr. Brothers. One of the things I would look for is 
developing what some people call frameworks.
    Chairman Carper. Developing what?
    Mr. Brothers. What some people call a framework, right?
    So a framework could be where you start thinking about what 
the threats are in terms of probability or time horizon and 
then look at what the impacts might be.
    Then by looking at that type of framework, you can start to 
think about, how would you invest and what kind of timeframes 
would you invest in? So that is one way of thinking about 
investments.
    In terms of making sure there is elimination of potential 
duplication, that is where this communication becomes 
important.
    Sir, right now, in the Department of Defense, we have 
something called the S&T Executive Committee. And in this 
committee we meet with the leaders of the services and the 
components, and we talk about our investment portfolios, and we 
try to ensure that we do not have those kinds of duplications.
    Those are the kinds of things I have seen to be effective.
    Chairman Carper. All right. Before I yield to Dr. Coburn, 
let me just ask the students that just walked in the hearing 
room that are Jasmine's classmates, would you all like to stand 
up? Why don't you just stand up?
    Just stand up and remain standing, if you would, and let me 
just say welcome to all of you.
    I am sitting here with Senator Tom Coburn, who is my 
colleague and a Republican from Oklahoma. And my name is Tom 
Carper. I am a Senator, a Democrat, from the State of Delaware. 
The two of us together lead one of the Senate committees. It is 
called the Senate Committee on Homeland Security and 
Governmental Affairs.
    Our job as United States Senators is to work with 98 other 
Senators and 435 Representatives in the House of 
Representatives, along with the President and the Vice 
President, to make the rules for our country. That is what we 
do.
    We make the rules for our country. They are called laws.
    And our job is to help people.
    And a big part of our job in this Committee is to make sure 
that we help protect the people of this country from harm from 
others in our country and outside of our country, who would 
wish us ill.
    And what we are working on today is trying to figure out if 
these two men nominated by the President might be a big help in 
leading our country to a safer place.
    So that is what we are doing, and we are just glad you 
could be a part of it.
    Please have a seat. Thank you. Dr. Coburn.
    Senator Coburn. Well, I said I was not going to ask 
questions, but I cannot help myself.
    This Committee is known as T.C.-squared--Tom Carper and Tom 
Coburn.
    General Taylor, the testimony that we had on the Boston 
bombings from the police chief of Boston, he was asked 
specifically, did the fusion center, the Commonwealth fusion 
center, provide information or actionable intelligence to 
anyone after the bombing that was not provided through other 
channels, and if so, what was it?
    His answer was they did not.
    And you specifically talked about counterterrorism, but as 
you know, fusion centers are an all-hazard event.
    So my question for you is, rather than spending precious 
dollars in fusion centers on information going down, wouldn't 
it be better to better utilize the Joint Terrorism Task Force 
(JTTF) for counterterrorism with a nod to the fusion center on 
the information and use the fusion centers to try to build 
information to JTTF and the other significant parts of the IC 
community?
    General Taylor. Sir, thank you for that question.
    I think fusion centers sit at an apex that can serve both 
the IC with information going back up but also can serve to 
send information back out to the police agencies around the 
country.
    I do not think it competes with the JTTF. I think it 
complements the JTTF. The issue is, how do we get the 
information into the fusion center that will complement the 
JTTF?
    And I intend, if confirmed, to work on that nexus with the 
Federal Bureau of Investigation (FBI) to make sure that we are 
not duplicating efforts but complementing the work of the JTTF 
and its law enforcement/investigative role from the 
intelligence collection and analysis role that we perform for 
I&A.
    Senator Coburn. I think that is important.
    The fact is the history has never shown one piece of 
actionable intelligence yet, in this country, from a fusion 
center, and we have pretty well shown that.
    That is not that we do not want it.
    General Taylor. Yes, sir.
    Senator Coburn. It is the fact that we have not been 
effective in developing that.
    And I am glad you are going to be in your position.
    Dr. Brothers, you are going to be responsible for this 
research except in two areas in Homeland Security that you do 
not have control over. So how are you going to handle that?
    Mr. Brothers. Let me make sure I understand your question. 
You said two areas of Homeland Security that I do not have 
control over?
    Senator Coburn. Well, for example, the nuclear portion.
    Mr. Brothers. Ah.
    Senator Coburn. And I cannot recall the second one, but 
there are two areas where you do not have line authority.
    So your talents of persuasion and ordering of priority are 
going to have to be highly effective if we are going to 
actually coordinate all the R&D and science and technology 
within Homeland Security. How do you do that?
    Mr. Brothers. I absolutely agree with you. I think it 
really does have to do with influence and persuasion and 
relationships.
    Senator Coburn. Should we reorganize and put it all into 
one?
    Mr. Brothers. I think, philosophically, I can understand 
why there is a lot of thought of consolidation and putting it 
all into one.
    I think in a lot of examples that works; in some examples, 
the actual implementation of that kind of consolidation can 
become difficult. So it is something that I think is very 
important to think about.
    I spoke to the Secretary about this, and I think he is very 
interested in thinking about how the implementation details.
    Senator Coburn. All right. Thank you.
    The rest of my questions I will submit for the record.
    Chairman Carper. Last evening I met with a friend of yours, 
the Director of the Central Intelligence Agency (CIA), Director 
John Brennan, and we talked about a lot of issues I know that 
he briefs the Intelligence Committee on fairly regularly.
    Near the end of our discussion, we touched on the issue of 
cybersecurity, and we talked about our efforts to try to 
enhance the skills of the folks that are at DHS, to better 
enable them and our country to deal with cyber attacks that are 
occurring 24-7, around the clock.
    This would be a question for Dr. Brothers. With an eye 
toward trying to protect us from these ongoing cyber attacks, 
how would you prioritize research and development in 
cybersecurity, and the work of the Science and Technology 
Directorate, in order to better protect us and our critical 
infrastructure and other parts of our Nation against the 
threats that we face today and maybe down the road?
    Mr. Brothers. Sure, I can answer that from my perspective 
of where I sit right now, at the Department of Defense, and how 
we are working through that. And I think, if confirmed, these 
are the kinds of things I would like to think about.
    What we are thinking about is looking at the key 
stakeholders--for example, in cyber, Department of Justice, 
Department of Defense, Department of Homeland Security, and how 
those three organizations overlap in terms of mission sets.
    When we start thinking about given those mission sets, how 
do we think to gaps in terms of our capabilities?
    And then we try to have S&T that is focused at those 
particular gaps.
    This gets back to Dr. Coburn's comment about persuasion, 
influence and all that--it requires a tremendous amount of 
communication across the borders and boundaries of these 
organizations in order to effectively do this.
    Chairman Carper. All right. Have you had a chance to get to 
know Dr. Tara O'Toole at all?
    Mr. Brothers. Yes, I have met with her.
    Chairman Carper. And your understanding from talking to 
others about her work and the team that she led there--and let 
me just say I was very impressed with her and thought she did a 
good job.
    But, when you think about her legacy and what was 
accomplished during the time that she provided leadership, 
where do you think they did a really good job, and what are 
some of the areas that need maybe some of your earliest 
attention?
    Mr. Brothers. Sure. I think what was a very good job was 
focusing on transition. I think a key point of science and 
technology, particularly in the Department of Homeland 
Security, is return on investment. Right?
    It is getting value. It is really exploiting the fact that 
science and technology is a force multiplier to our operators. 
And I think Dr. O'Toole did a good job with that.
    I think I would consider looking at other phases of the 
research continuum.
    So we may consider not just on what can be very quickly 
transitioned, but how do we think about things that may take a 
little bit longer, understanding this higher risk? Right?
    Understanding this higher risk and evaluating how much we 
want to put in a risky investment versus less risky 
investments.
    Chairman Carper. All right. Let me turn back to you, 
General Taylor, if I could.
    We mentioned your work on behalf of General Electric. For 
how many years? Was it 8 years?
    General Taylor. Eight and a half.
    Chairman Carper. Eight and a half years.
    But I think you were the head of security for what is one 
of the most successful companies in the world, and you 
obviously have some valuable insights in the security needs of 
the private sector.
    I&A serves many customers, as you know, including the 
private sector.
    And let me just ask two questions, if I may.
    What Department of Homeland Security information would have 
been most valuable to you as head of security for General 
Electric? That is question No. 1.
    And, given your interactions with I&A while at General 
Electric, how can I&A improve its service to the private 
sector?
    General Taylor. Thank you, Senator.
    First, in my view, the most valuable information out of 
Homeland Security for the General Electric Company was on 
cybersecurity, and a lot of the other security information we 
were able to glean from local police departments and those 
sorts of things in the communities where our factories are, 
especially in the United States.
    But the cybersecurity information, I think, was most 
valuable and certainly an area where I&A, in working with 
National Protection and Programs Directorate (NPPD), needs to 
continue to ramp up our capability to get that kind of 
information out. I think it is the biggest gap in the private 
sector, and that is understanding the nature of the threat.
    A company the size of GE has resources and can reach in 
lots of places, but 85 percent of the companies in this country 
are not that size and do not have those kinds of resources. So 
I think that is an area where we can assist in informing the 
business community of the threats and risks in cyber space.
    DHS and the Federal Bureau of Investigations have worked, I 
think, quite hard to try to put together what they call the 
Domestic Security Advisory Council (DSAC). It is not as mature 
as I think it needs to be. I think the Overseas Security 
Advisory Council at the State Department is the gold standard. 
So my intent would be to work with my colleagues at the FBI to 
improve the efficiency and effectiveness of DSAC in responding 
to the information needs from the government and private sector 
security entities.
    Chairman Carper. OK. I think once a year, maybe once every 
other year, there is a non-profit entity which studies morale 
of Federal employees across many of our agencies, and they 
issue a report, and they literally rank and rate morale across 
agencies.
    And I think look at as many as 300 agencies, all total. 
Some of them are fairly small. Others are, obviously, much 
larger.
    But the Department of Homeland Security, no secret, has 
struggled with morale problems for a variety of reasons. One is 
they are spread out all over the place and there is not a real 
sense of team unity. All these different agencies were kind of 
jammed together in what we hoped was a logical way, but they 
have no real campus and no headquarters, and they are, in many 
ways, far-flung and not a tight unit or team.
    There are some exceptions, though, within the Department of 
Homeland Security, and some of the components in the Department 
of Homeland Security actually rank very high in terms of 
employee morale. We have taken a look at that in trying to 
figure out why that is.
    Talk to us about the morale in I&A. We are told it is not 
very good.
    I spent a few years of my life in the Navy, and we thought 
a lot about morale and tried to enhance it.
    We should do the same thing here. Our Committee, if 
anybody, has jurisdiction over Federal employees at large, and 
that includes morale. So we are concerned about it.
    You have, obviously, worked a lot on morale, enhancing it 
for years, in uniform and out of uniform. Talk to us about how 
you might bring those skills to enhance the job satisfaction of 
the folks that you will be leading.
    General Taylor. Sir, I appreciate the question.
    I have read the reports of morale across the departments, 
specifically morale within I&A. I think I&A has been buffeted 
by many expectations about what is mission accomplishment and 
how are they performing. They are hearing from many different 
voices--good, bad and ugly--about the organization and what it 
is accomplishing.
    I think morale stems from people really understanding what 
their mission is, leaders that really focus on objectives and 
metrics to drive a mission accomplishment, and people who 
really understand that leaders care for them, care about what 
they do, care about how they do it and get them the resources 
that they need to get their job done.
    So my focus on morale is making sure everyone in I&A 
understands what the mission is, not what they think the 
mission is, but what the mission is, what we expect each of 
them to do to contribute to that mission and then what the 
results are going to be going forward.
    And I would expect every leader in I&A to be focused in the 
same way that I would be focused, in confirmed, to drive that 
message to our employees--that they are important, that they 
are getting things done and that we appreciate the work that 
they are doing.
    Chairman Carper. Before I turn to Dr. Coburn, Dr. Brothers 
just a real quick word from you on morale. My sense is the 
morale over at the R&D unit you will lead is a little better, 
but just talk to us about your focus on morale. How do you plan 
to keep it up and make it better?
    Mr. Brothers. I think morale is extraordinarily important. 
I think that in order to get the most effective use of the 
team, morale has to be high.
    I have looked at some of the data coming out of some of 
those surveys you were talking about, and while it shows 
challenges, what I would look to do, if confirmed, is 
understand really the root causes--the whys. Perform a real 
root cause analysis to understand why this is.
    When I have an understanding what the why is, then the next 
step is do something about it. And I think that really has to 
do with the communication piece I mentioned earlier, making 
sure, as General Taylor did, that folks understand what the 
vision is, the strategy is, but not only that, making sure that 
everyone is involved in the process. So it is not just a top-
down kind of development, but there is also input from every 
level of the organization.
    Chairman Carper. Dr. Coburn.
    Dr. Coburn. My experience in both the business and the 
medical communities is creating proper expectations and the 
pats on the back when people accomplish that, and that is what 
has been lacking at Homeland Security across a broad swath of 
it.
    We have valuable employees there, but their accomplishments 
have not always been recognized. The expectations have not been 
created. People want to perform, but they also want to be 
recognized when they have performed.
    And so having the clear objectives of what the mission is, 
is a key component in all areas of Homeland Security, not just 
these two, and that is what has been lacking.
    So leadership, which both of you represent, and very 
quality experience in those areas are exactly what Jeh 
Johnson--why he wants you there because he is that kind of 
leader.
    And so my hope is that you can instill that leadership that 
is necessary to make people proud of what they have done and 
give them a clear pat on the back when they have accomplished 
what was expected of them and creating goals that are 
achievable but still hard, causing people to grow. People want 
to grow.
    So I think you both get it. I am pleased that you are here, 
pleased that you are going to be confirmed. Our job is to make 
it happen quickly.
    Chairman Carper. I will say, in wrapping up, the elements 
that I find most important in my life with respect to enhancing 
people's satisfaction with their work is the feeling that what 
they are doing is important and to believe that they are making 
progress.
    One of the keys to making progress is having strong 
leadership.
    Show me an organization. I do not care what organization it 
is. It could be a school. It could be a church. It could be a 
business. It could be an athletic team. It could be a 
governmental unit. Show me one of those elements or one of 
those entities that has strong leadership, and I will show you 
a successful organization or one that is on its way to being 
successful.
    As Dr. Coburn has suggested, critical to the morale of the 
employees of these agencies that we hope you will be leading is 
strong leadership--Senate-confirmed leadership. It is the job 
of the President and his folks to recognize, identify, vet, and 
send to us names of well-qualified people.
    As Dr. Coburn suggests, it is our job to drill down on your 
qualifications and who you are and what you bring to the table, 
and if we deem you well-qualified, to expeditiously hold this 
hearing and, hopefully, report our your nominations to the full 
Senate. Things tend to slow down there.
    Dr. Coburn has been a great partner with me, in working 
with Democratic and Republican leadership in the Senate, to try 
to move through nominations that the Secretary and the 
President have asked for.
    We have too many senior positions in this Department that 
do not have Senate-confirmed leadership, and that is not to 
take anything away from the people who have served in Acting 
capacities, but it is just much harder to serve and to lead in 
that capacity.
    So I want to, again, on behalf of all of us, those that are 
here, those that are not here today at our hearing--it is 
actually a pretty good sign when there are not many Senators at 
a confirmation hearing. It is not bad news.
    But we are pleased that you are here and that you have 
prepared for, really, your whole lives, for these 
responsibilities and that you are willing to take them on.
    I just want to say to your families that are here and those 
family members that are not, to your dad, to your wife, to your 
daughter, to all those kids from her class, to the friends and 
family that General Taylor has brought with them; thanks for 
your willingness to share with us two very good men.
    That having been said, the hearing record will remain open 
until just noon tomorrow. So for Members who have some 
questions they want to ask, they have until noon tomorrow to do 
that.
    Dr. Coburn, I know, has some additional questions. I am 
sure others on our Committee do, too.
    As soon as you have an opportunity to give us your 
thoughtful responses the sooner that will enable us to try to 
move your nominations out of committee and onto the floor.
    Dr. Coburn, anything else?
    Dr. Coburn. No, thank you.
    Chairman Carper. Again, our thanks to you.
    And, with that, this hearing is adjourned.
    Thanks so much.
    [Whereupon, at 10:21 a.m., the Committee was adjourned.]




                            A P P E N D I X

                              ----------                              



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]

</pre></body></html>
